UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




    FY 2013 Sequestration – Preparation,
       Implementation, and Impact

                 Report No. OIG-AMR-72-14-02




                                               June 26, 2014
                                            CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND.......................................................................................... 3

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................... 3

SEQUESTRATION PREPARATION ............................................................. 4

SEQUESTRATION IMPLEMENTATION ....................................................... 8

     Comparison of Budget Planning to Actual Obligations....................... 8
     Impact of the Final Sequestration Operating Plan on FY 2013 .......... 9

SEQUESTRATION’S IMPACT BEYOND FY 2013 ....................................... 12

     Impact of End-of-the-Year Spending ................................................. 12
     Curtailment of Procurement Actions ................................................ 14
     Impact of Time Off Awards by Cost and Productivity ....................... 15
     Rates of New Hires and Separations ................................................ 17

CONCLUSION ......................................................................................... 18 


APPENDIX

       Memorandum from the Chief Financial Officer, Response to Audit of the
       National Labor Relations Board FY 2013 Sequestration – Preparation,
       Implementation and Impact Report No. OIG-AMR-72, dated June 24,
       2014
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

On March 1, 2013, the President ordered the sequestration of budgetary
resources to achieve $85.3 billion in reductions across Federal government
accounts in the remaining 7 months of the fiscal year. As a result of that
action, the National Labor Relations Board’s Fiscal Year 2013 appropriation
level was $263,748,933, an amount that was approximately 5.2 percent, or
$14,557,073, below the Fiscal Year 2012 funding level. We initiated this audit
to review how the Agency planned for sequestration, how the Agency
implemented sequestration, and the impact that sequestration could have on
future years.

In general, we found that the National Labor Relations Board followed the
guidance and directives of the Office of Management and Budget in preparing
for the President’s sequestration order. We observed that the Agency created
and implemented the Final Sequestration Operating Plan that provided the
necessary precision to achieve adequate budgetary guidance. We also observed
that over one-third of the budgetary savings came from personnel expenses
resulting from the attrition of employees and curtailing cash performance
awards. Additional savings came from the curtailment of procurement actions,
including delaying the acquisition of essential goods and services.

Determining the impact of sequestration on the National Labor Relations
Board’s future operations is not an exact science. We can, however, estimate
that $4,251,977 in spending was shifted from Fiscal Year 2013 to a later fiscal
year rather than being an elimination of operating costs. We also estimate that
the substitution of time off awards for GS-ratings based cash awards could
potentially result in the loss of 45,710 hours in productivity at a current value
of $2,320,481. Each of these estimates is discussed in more detail in the body
of the report.

A significant part of our efforts in conducting the audit was to review the
periods of performance for all the procurement actions in Fiscal Year 2012 and
2013. Based on that review, we were able to determine the “reach” of the
appropriation for those fiscal years in providing goods or services in future
fiscal years. We can conclude from that review that the National Labor
Relations Board was well-positioned by its Fiscal Year 2012 procurements to
satisfy its basic operating needs in Fiscal Year 2013. Because of the deferment
of acquiring essential goods and services during Fiscal Year 2013, however, the
National Labor Relations Board is not heading into the future in that same
position.
Additionally, as noted above, a significant savings in budgetary resources was
achieved through the reduction of personnel expenses. That savings resulted
in part from a 5.2 percent reduction in personnel. While the strategy of limited
hiring to achieve reduction in operating expenses worked well in the short
term, it cannot be implemented as a long-term solution to address across-the-
board Government budget cuts imposed by sequestration without a significant
impact on the mission of the National Labor Relations Board.

Based upon our audit work, we concluded that although the National Labor
Relations Board effectively implemented short-term actions to meet the
requirements of sequestration, not all of those actions could be repeated to
achieve the same outcome in the future. If that conclusion is correct and
additional budgetary restraints of a magnitude of the Fiscal Year 2013
sequestration are again imposed, the National Labor Relations Board would
likely be required to implement employee furloughs and/or further reduce its
workforce. Either action would directly impact the ability of the National Labor
Relations Board to fulfill its statutory mission.

The Chief Financial Officer commented that he agreed with the draft report’s
conclusions and that the short-term actions, including severely limiting hiring,
which in turn resulted in not backfilling critical positions, almost certainly
cannot be repeated. The Chief Financial Officer also noted that a significant
amount of time was expended by many senior Agency executives who were
required to devote their efforts to planning for and responding to the challenges
posed by sequestration and that such time could not be applied to mission-
related work. Thus, the effect of sequestration on the Agency and the public
was not limited to the effect of the budget cuts themselves. A copy of the Chief
Financial Officer’s comments is included with the report as an appendix.




                                       2
BACKGROUND

             During most of the first half of Fiscal Year (FY) 2013, the
             National Labor Relations Board (NLRB or Agency), along with
             the other Federal agencies, faced uncertainty about funding
             levels associated with the automatic, across-the-board
             cancellation of budgetary resources, known as sequestration.
             Sequestration was first established in the Balanced Budget
             and Emergency Deficit Control Act of 1985 to enforce
             discretionary spending limits and control the deficit. This
             budgetary enforcement mechanism was revived by the
             Budget Control Act of 2011, which provided the legal basis
             for the FY 2013 sequestration. Accordingly, on March 1,
             2013, the President ordered the sequestration of budgetary
             resources to achieve $85.3 billion in reductions across
             Federal government accounts. The cuts were to be achieved
             during the remaining 7 months of the fiscal year.

             After the permanent reduction due to sequestration, the
             NLRB’s FY 2013 appropriation level was $263,748,933,
             which was approximately 5.2 percent, or $14,557,073, below
             the FY 2012 appropriation of $278,306,006. Because the
             reduction from sequestration occurred with only 7 months
             remaining in the fiscal year, the effective reduction in the
             NLRB’s budgetary resources was 8.9 percent.


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to review the NLRB’s
             implementation of the March 1, 2013 across-the-board
             spending cuts, known as sequestration. Specifically, we
             reviewed how the Agency planned for sequestration, how the
             Agency implemented sequestration, and the impact the
             sequestration could have on future years.

             The audit scope was the NLRB’s actions in preparation for
             and in response to the March 1, 2013 sequestration order,
             and the impact of those actions on FY 2013 and future
             years. We conducted this audit at NLRB Headquarters in
             Washington, D.C.

             We reviewed Governmentwide policy documents that
             provided guidance and direction for preparation and
             implementation of sequestration. We interviewed Agency
                                 3
             management officials and bargaining unit representatives.
             We obtained and reviewed the Agency’s planning and
             implementation documents. We also obtained the Agency’s
             Sequestration Operating Plan from the Budget Branch and
             compared the planned obligations to the Agency’s actual
             obligations for FY 2013.

             As part of our evaluation of the implementation of
             sequestration, we compared the FY 2012 and FY 2013
             obligations. We also reviewed the information that we
             gathered when we monitored the rate of obligations on a
             daily basis for the last month and a half of FY 2012 and FY
             2013. To evaluate the impact beyond FY 2013, we used the
             obligations and period of performance data from the financial
             management systems and the Acquisitions Management
             Branch to determine the extent to which the FY 2012 and FY
             2013 appropriations extended beyond the end of those fiscal
             years.

             To evaluate the impact of the Agency’s decision to issue time
             off awards in lieu of cash awards as a cost savings measure,
             we obtained time off awards data as of March 13, 2014, from
             the Office of Human Resources. We also obtained new hire
             and separation data to measure the savings from the
             Agency’s reduction in payroll expenses.

             We conducted this performance audit in accordance with
             generally accepted government auditing standards during
             the period July 2013 through June 2014. Those standards
             require that we plan and perform the audit to obtain
             sufficient, appropriate evidence to provide a reasonable basis
             for our findings and conclusions based on our audit
             objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on
             our audit objectives.


SEQUESTRATION PREPARATION

             Prior to the President’s sequestration order, the Office of
             Management and Budget (OMB) issued memoranda that
             provided guidance and direction to agencies for preparation
             for sequestration. We determined that the NLRB planned for
             sequestration in accordance with the OMB guidance. The


                                  4
                     tables below provide a crosswalk between OMB’s guidance
                     and direction and the NLRB’s preparation:

                                           Meets
Requirement                             Requirement       NLRB Actions
OMB M-12- Agencies should                   Yes           We did not observe any deviations
17 issued   continue normal                               in Agency actions from previous
7/31/12     spending and                                  periods of funding by a Continuing
            operations since more                         Resolution.
            than 5 months remain
            for Congress to act.

                                            Meets
Requirement                             Requirement       NLRB Actions
OMB M-13- Agencies directed to generally adhere to the following guiding principles in
03 issued   preparing plans to operate with reduced budgetary resources:
1/14/13     1) Use any available             Yes          The Agency reconstituted the Cost
            flexibility to reduce                         Savings Work Group and the
            operational risks and                         Contingency Planning Work
            minimize impacts on                           Group. The Cost Savings Work
            the agency’s core                             Group produced plans for reduced
            mission.                                      budgetary resources that
                                                          considered available cost saving
                                                          flexibilities to reduce operational
                                                          risks and minimize impacts on the
                                                          mission.
            2) Identify and address          Yes          The Cost Savings Work Group
            operational challenges                        identified contracts to cancel,
            that could potentially                        curtail, or delay. The contract
            have a significant                            determinations were made to avoid
            deleterious effect on the                     furloughs and minimize the
            agency’s mission.                             negative impact on the Agency’s
                                                          mission.
            3) Identify the most             Yes          Both the Cost Savings Work Group
            appropriate means to                          and the Contingency Planning
            reduce civilian                               Work Group produced plans that
            workforce costs where                         identified the means to reduce
            necessary.                                    civilian workforce costs.
            4) Review grants and             Yes          The Cost Savings Work Group
            contracts to determine                        produced plans that documented
            where cost savings may                        the review of contracts to
            be achieved, remaining                        determine where cost savings may
            mindful of the manner                         be achieved, remaining mindful of
            in which individual                           the impact on the mission. The
            contracts advance the                         requirement regarding grants is
            core mission.                                 not applicable to the NLRB.
            Work with OMB on the             Yes          The Office of the Chief Financial
            appropriate timing to                         Officer (OCFO) drafted the
            submit draft                                  sequestration plan and narrative,
            contingency plans for                         then submitted them to OMB, and
            operating under                               maintained ongoing
            sequestration.                                communications with OMB.


                                             5
                                        Meets
Requirement                          Requirement   NLRB Actions
OMB M-13-
05 issued   Agency Planning Activities
2/27/13     Planning efforts should      Yes       The Cost Savings Work Group
            be done with sufficient                produced plans for specific actions
            detail to determine                    to be taken to operate with lower
            specific actions that                  budgetary resources. Specifically,
            will be taken to operate               the plans proposed various cost
            with lower budgetary                   saving measures in order to
            resources.                             address the approximate deficit to
                                                   the Agency as a result of
                                                   sequestration.
            Agencies should             Yes        The Cost Savings Work Group
            identify any major                     produced plans that identified the
            contracts they plan to                 major contracts to cancel, re-scope
            cancel, re-scope or                    or delay. The portion of the
            delay as well as grants                requirement regarding grants is
            to cancel, delay, or for               not applicable to the NLRB.
            which they plan to
            change the payment
            amount.
            Identify the number of      Yes        The Contingency Planning Work
            employees who will be                  Group produced plans for the
            furloughed, the length                 administrative approach, timing of
            of expected furloughs,                 furlough notices, as well as the
            the timing of when                     length, timing, and number of
            furlough notices will be               furlough days to be taken if
            issued, and the                        necessary.
            manner in which
            furloughs will be
            administered.

            Communications
            Agencies should inform      Yes        On 2/26/2013, the Agency issued
            their partners and                     a notice of proposed furlough to
            stakeholders of the                    employees. On 3/4/2013, the
            impact of                              issued a notice of sequestration
            sequestration and                      impact to contractors. On
            provide specific detail                3/18/2013, Memorandum OM 13-
            to be helpful in                       37, Casehandling Cost Saving
            understanding its                      Instructions for FY 2013, was
            implication.                           posted on the NLRB’s public Web
                                                   site.
            With regard to any          Yes        The Agency’s bargaining units
            planned personnel                      representatives were members of
            actions to reduce its                  both the FY 2013 Cost Savings
            workforce costs,                       Work Group and the Contingency
            agencies must allow                    Planning Work Group.
            employees’ exclusive
            representatives to have
            pre-decisional
            involvement.


                                        6
                                          Meets
Requirement                            Requirement      NLRB Actions
OMB M-13- When considering                 Yes          The Agency negotiated with the
05 issued   potential furloughs,                        unions over the impact and
2/27/13     agencies have a duty to                     implementation proposals for
(continued) notify their exclusive                      potential furloughs.
            representatives and,
            upon request, bargain
            over negotiable impact
            and implementation
            proposals, unless the
            matter of furloughs is
            already covered by a
            CBA.

             Acquisition
             Ensure that any                Yes         The Cost Savings Work Group
             contract actions are                       identified contracts to cancel,
             both cost-effective and                    curtail, or delay that were not
             minimize negative                          critical or essential to the Agency
             impact on the agency’s                     mission.
             mission.
             Program, acquisition,          Yes         The Cost Savings Work Group,
             financial/budget                           which identified contracts to
             management, IT, and                        cancel, curtail, or delay, included
             legal personnel should                     representatives involved in
             work together to make                      program, acquisition,
             determinations                             financial/budget management, IT,
             regarding contracts in                     and legal personnel.
             light of sequestration.
             Agencies should only           Yes         In the effort to avoid furloughs, the
             enter into new                             focus of the Agency was to review
             contracts or exercise                      contracts and eliminate, reduce, or
             options when they                          delay those that were not critical
             support high-priority                      or essential to the Agency mission.
             initiatives or where
             failure to do so would
             expose significantly
             greater costs to the
             government in the
             future.

             Increased Scrutiny of Certain Activities
             Have risk management          Yes          Hiring requests were reviewed by
             and internal controls                      the Deputy General Counsel and
             in place that provide                      the Chairman’s Chief of Staff.
             heightened scrutiny of                     Hiring decisions were then
             hiring new personnel                       authorized by the General Counsel
             (including increased                       or Chairman.
             use of contractors due
             to hiring restrictions).




                                           7
                                         Meets
Requirement                           Requirement   NLRB Actions
OMB M-13- Have risk management            Yes       After 3/1/13, the Agency
05 issued   and internal controls                   authorized one cash award that
2/27/13     in place that provide                   was required by statute to
(continued) heightened scrutiny of                  maintain the Agency’s SES
            issuing discretionary                   certification. After that date, no
            monetary awards (only                   other cash performance awards
            if legally required).                   were authorized.
            Have risk management          Yes       A travel coordinator was to be
            and internal controls                   designated by each office to
            in place that provide                   manage travel. Their
            heightened scrutiny of                  responsibility was to cluster travel
            incurring obligations                   assignments, avoid nonessential
            for new training,                       travel, and ensure that alternative
            conferences, and travel                 investigative techniques were
            (including travel for                   employed in lieu of travel whenever
            non-agency personnel).                  possible. The Agency
                                                    canceled/curtailed new training
                                                    and conferences after March 2013.



SEQUESTRATION IMPLEMENTATION

Comparison of Budget Planning to Actual Obligations

                    To determine how the NLRB implemented its sequestration
                    plan, we compared the Final Sequestration Operating Plan to
                    the NLRB’s actual obligations. The Final Sequestration
                    Operating Plan was approved on April 10, 2013 with less
                    than 6 months remaining in the fiscal year. Our general
                    observation was that the plan achieved a degree of precision
                    in its estimates for fixed spending for items such as
                    compensation and rent. In the remaining areas, savings in
                    one category was generally offset by greater than the
                    budgeted expenses of another. Nevertheless, given the
                    NLRB’s lack of control over the intake of mission-related
                    work, the Final Sequestration Operating Plan appears to
                    have provided the necessary precision to achieve adequate
                    budgetary guidance.

                    Overall, the plan budgeted $263,758,933 for spending and
                    the NLRB actually obligated $263,023,099, a difference of
                    $735,834, or 0.28 percent. The chart below shows the
                    budgeted amount in the Final Sequestration Operating Plan
                    and the actual amount obligated.



                                         8
                              Planned            Actual
Description                  Obligations       Obligations       Difference
Compensation               $161,831,873.00   $161,898,945.16      $67,072.16
Cash Awards                       9,000.00          48,220.00       39,220.00
Lump Sum Payment
                              1,700,000.00       1,364,524.52     (335,475.48)
(Separated Employees)
Overtime                         20,000.00          7,349.10       (12,650.90)
Witness Fees                     50,000.00         41,163.98         (8,836.02)
Benefits                     43,360,200.00     43,619,226.96       259,026.96
FECA                            251,430.00        251,428.36              (1.64)
Subsidies for
                              1,250,000.00       1,141,009.09     (108,990.91)
Commuting Costs
Transfer Costs                  187,300.00        137,888.00       (49,412.00)
Professional Liability
                                 10,000.00           3,030.55       (6,969.45)
Insurance
Unemployment
                                 60,000.00          37,795.34      (22,204.66)
Compensation
Travel                        1,921,700.00      1,651,445.64      (270,254.36)
Witness Travel                   50,000.00         30,492.66        (19,507.34)
Transportation of Things        321,230.00         99,067.87      (222,162.13)
Space Rent                   29,720,000.00     29,147,444.85      (572,555.15)
Rental (Equipment,
                               746,000.00         951,012.44       205,012.44
Room)
Communication                 3,544,000.00      2,777,516.93      (766,483.07)
Postage                         415,000.00        671,674.80       256,674.80
Printing                        126,000.00        298,229.44       172,229.44
Interpreter Fee                 300,000.00        248,807.29        (51,192.71)
Reporting                             0.00         34,937.40         34,937.40
Other Services               16,733,300.00     16,965,323.84       232,023.84
Supplies                        444,500.00        502,334.58         57,834.58
Subscriptions                    59,600.00         16,321.38        (43,278.62)
Equipment/Books                 447,800.00        898,033.47       450,233.47
Claims/EEO
                                200,000.00        201,075.80         1,075.80
Grievance/No Fear Act
Reimbursements                                    (21,200.18)      (21,200.18)
Total                      $263,758,933.00   $263,023,099.27    $(735,833.73)

Impact of the Final Sequestration Operating Plan on FY 2013

                 To determine the impact of the Final Sequestration
                 Operating Plan on the FY 2013 spending, we compared the
                 final obligated balances of the FY 2012 and FY 2013 budget
                 object classes. For purposes of presentation, we then
                 grouped the budget object classes into logical categories.

                                     9
                Overall, there was a decrease in obligations in FY 2013 in
                the amount of $14,492,614.53. The greatest decrease
                occurred in object classes for employee salaries, benefits,
                and awards. Together, the savings from those expenses
                represented over one-third of the total savings necessary to
                fall within the budgetary limits that were set by
                sequestration. We observed that those savings largely
                resulted from a hiring “freeze” and the curtailment of
                employee cash awards. The charts below show decreases
                and increases in spending between the two fiscal years.

FY 2013 Decreases in Spending as     OIG Observations:
Compared to FY 2012:
Employee Salaries   ($3,435,768.33) Agency instituted a hiring freeze.
and Benefits                         Vacant positions were not filled
                                     unless the position was determined
                                     to be critical to the mission of the
                                     Agency.
LASB Databases        (2,337,090.45) Agency procured Westlaw for
and Other                            $2,703,533.64 in FY 2012 with a
Subscriptions                        POP: 10/1/12 to 9/30/15.
                                     $901,177.88 of that procurement
                                     can be allocated to FY 2013. Other
                                     database subscriptions were
                                     canceled.
Cash Awards           (2,114,260.08) Agency canceled/curtailed cash
                                     awards after March 1, 2013.
Software, Hardware,   (1,619,910.57) Agency canceled/curtailed
Equipment,                           procurement actions.
Furniture and
Books
Travel                (1,115,444.51) Agency canceled/curtailed non-
                                     critical administrative travel during
                                     FY 2013 and provided travel related
                                     cost savings instructions for case
                                     processing.
Training              (1,088,934.70) Agency canceled/curtailed training.
Court Reporting       (1,052,344.81) Agency delayed court reporting
                                     procurement actions in the amount
                                     of $1,400,000 until FY 2014 funds
                                     were available.
Shared                  (909,462.23)
Governmental IT
Services


                                    10
FY 2013 Decreases in Spending as    OIG Observations:
Compared to FY 2012:
Other Miscellaneous   (478,207.39)
Services
Supply Inventories    (415,239.55)
Office Relocations    (362,225.96)
and Alterations
Software              (287,248.29)
Maintenance
Health Units and      (220,907.09)
Services
Computer Desktop      (196,745.25) OCIO eliminated the technical
Support (Helpdesk)                  writing and asset management
                                    positions from the helpdesk
                                    contract and reduced NxGen
                                    support down to one person.
Judgments - Lost      (140,895.14)
Court Cases
Rental of Copiers     (106,456.09) Agency canceled/curtailed copier
                                    contracts during FY 2013.
Telecommunications      (62,341.82)
and Rental of Other
Equipment
Telephone               (60,896.85)
Equipment
Repair/Maintenance
Interpreter and         (51,184.43)
Translations
Messenger Services      (47,424.82)
Security                (40,548.75)
Investigations

FY 2013 Increases in Spending as Compared to FY 2012:
Agency Space Rent, Security, Parking, and Utilities       $741,824.50
OCIO Hardware Maintenance                                  289,204.60
Professional/Consulting Services                           179,227.20
EEO Grievance Settlements                                  163,295.10
Postage                                                    163,086.65
Printing and Production                                     93,296.13
WAN (Wide Area Network)                                     73,134.35
Arbitration and Mediation                                   48,966.12




                                 11
SEQUESTRATION’S IMPACT BEYOND FY 2013

Impact of End-of-the-Year Spending

                Federal procurement statutes and regulations provide some
                flexibility to agencies by allowing them, under certain
                circumstances, to extend the reach of an appropriation
                beyond the particular fiscal year for which it was
                authorized. Generally, for the NLRB, this flexibility falls into
                two categories: severable services with a period of
                performance that crosses fiscal years but does not exceed 12
                months in duration and multiple year subscriptions for,
                among other things, databases. In both cases, an agency is
                authorized to record the obligation for the entire period of
                performance against the current year’s appropriation.
                Additionally, obligations that are created by procurement
                actions for nonseverable services are funded by the
                appropriation that is available at the time the obligation is
                created without regard to the length of the period of
                performance.

                Historically, the NLRB has used this flexibility for severable
                services and subscriptions to fund the following year’s needs
                out of the current year’s appropriation. For example, in FY
                2012 the NLRB had just over $32,000,000 in procurement
                actions for goods and services other than rent. Just under
                $10,000,000 of those procurement actions occurred in the
                final month and a half of the fiscal year, and approximately
                $6,500,000 of those procurement actions were for some form
                of services that were used or completed after the end of the
                fiscal year.

                When this flexibility is used appropriately, an Agency can
                leverage one year’s appropriation to ease the burden of
                reduced budgetary authority in the following or later years.
                To determine how the end-of-the-year procurements
                impacted the NLRB during the period of sequestration, we
                compared the rates of the obligations for the last month and
                half of FY 2012 and FY 2013 and the reach of the periods of
                performance services procured during each fiscal year.

                The following charts show the comparison. The first chart
                shows the amount of funds available for the obligation for
                goods or services for the last month and a half of each fiscal
                year. The second chart shows the amount of obligated funds

                                     12
                                       for the indicated period of time. For the second chart, the
                                       decline in the amount of obligated funds represents the
                                       expiration of the periods of performance.

                                         End-of-the-Year Spending Comparison
                       $12,000,000 
Amount Available for




                       $10,000,000 
    Obligation




                        $8,000,000 

                        $6,000,000                                                            FY 2012
                                                                                              FY 2013
                        $4,000,000 

                        $2,000,000 

                                $‐
                                      8/12   8/19   8/26   9/2   9/9    9/16   9/23   9/30




                                                           13
                Based upon our comparison, we determined that not only
                were the amounts of the obligations for goods and services
                lower in FY 2013 than in 2012, as expected, but that the
                NLRB had a significantly smaller amount of funds available
                towards the end of FY 2013 than it did at the end of FY
                2012. Although we expected that amount to be less, the
                difference was approximately $7,500,000, or about half of
                the NLRB’s reduction in funding from sequestration. The
                reduction in available funds at the end of the fiscal year
                impacted the procurement of services that crossed over into
                FY 2014 by a reduction of $3,052,669.55 from the FY 2012
                level.

Curtailment of Procurement Actions

                The curtailment of procuring non-essential or non-recurring
                goods, services, or other expenses represents an actual
                savings if they are not procured in the future because the
                specific need or opportunity has passed. Examples of these
                types of items are training and travel.

                The curtailment of procuring essential goods and services,
                however, creates a delay in obtaining those goods and
                services. For those goods and services, the funding is shifted
                from one fiscal year to a future fiscal year. The delay in
                fulfilling the need then further extends the impact of
                sequestration.

                The extent of the impact on the future fiscal years for the
                procurement of essential goods and services is shown in the
                table comparing the decreases in obligations between FY
                2012 and FY 2013. For example, in prior fiscal years, court
                reporting services were procured at the end of one fiscal year
                for the following fiscal year with a period of performance that
                crossed between the 2 years. In FY 2013, the court reporting
                contracts were not renewed, and procurement of those
                services was delayed until they could be obligated against
                the FY 2014 appropriation. As of April 7, 2014, the shift in
                the amount of obligations for court reporting services from
                FY 2013 to FY 2014 was $1,400,000. A similar shifting from
                FY 2013 to a later year occurred when the NLRB canceled or
                curtailed procurements for essential items such as computer
                replacements, software, furniture, supplies, and other
                equipment. Eventually, these items will need to be procured
                to maintain the NLRB’s operations. Based upon the

                                    14
                comparison of FY 2012 and FY 2013 obligations and the
                cause of the decreases, we estimated that $4,251,977.31 in
                spending was shifted from FY 2013 to a later fiscal year
                rather than being an elimination of operating costs. That
                amount represents approximately 29 percent of the
                reduction in funding that was imposed by sequestration.

Impact of Time Off Awards by Cost and Productivity

                As part of planning and implementing sequestration, the
                NLRB curtailed all cash awards with the exception of one
                cash award in the amount of $9,000 for a Senior Executive
                Service (SES) employee. By statute, the NLRB was required
                to have an SES awards program in FY 2013 to maintain
                Office of Personnel Management’s certification of its SES
                appraisal system. The single award was to one SES
                employee and was the minimum amount that the NLRB
                needed to meet the requirement for an SES awards program.
                Additionally, prior to the President’s sequestration order, the
                NLRB paid $39,220.00 in non-SES cash awards.

                On April 4, 2013, OMB issued M-13-11, stating that
                agencies should not issue discretionary monetary awards
                and that agencies should limit the use of foreign language
                and time off awards to situations that were necessary to
                maintain the agency’s mission. The ability of the NLRB to
                follow that guidance was impacted by its negotiations with
                the National Labor Relations Board Union (NLRBU) to use
                time off awards in lieu of cash awards and an October 21,
                2013, Federal Service Impasses Panel decision that set the
                amount of each of the award levels for the NLRBU. The
                NLRB also provided for ratings based time off awards for
                managers, supervisors, and other GS-level employees
                outside of the NLRBU. Most career SES employees also
                received a time off award, but the award was based upon a
                special act rather than a performance rating. Additionally,
                employees who provide bilingual services received time off
                awards in lieu of cash awards.

                The chart below shows the amount of hours and the value of
                the time off awards by employee group. The value of the time
                off award was the value assigned to the award hours by the
                NLRB’s payroll system at the employee’s current pay rate.



                                    15
                      Employee Group                  Award Hours                  Payroll System Value
                      SES                                   2,420                            $197,515.80
                      GS                                   49,430                          $2,549,031.61
                      Bilingual Awards                      1,359                             $56,015.44

                          The impact to the NLRB of cash awards and time off awards
                          can be different. Cash awards obligate, and therefore affect,
                          only the funds of the fiscal year in which they are effective.
                          Because time off awards do not obligate any funds and do
                          not expire, the awards impact the year in which the time off
                          is taken.

                          To determine the impact of the FY 2013 GS-ratings based
                          time off awards that were made in lieu of cash awards, we
                          reviewed the effective date of each award. For the time off
                          awards that were approved in the last month of FY 2013,
                          12,860 hours, or in FY 2014, 32,850 hours, we allocated the
                          value of those awards to the years after FY 2013. Given the
                          short period of time that an employee would have to use the
                          time off award in the last month of the fiscal year, we believe
                          that it is fair to characterize those awards as impacting the
                          productivity of the following year or years. We acknowledge
                          that there is no certainty of when the time off awards would
                          be used as they do not expire. Based upon that allocation,
                          we concluded that the potential impact of the GS-ratings
                          based time off awards on the years after FY 2013 is a loss of
                          approximately 45,710 hours in productivity at a current
                          value of $2,320,481.77. 1 Additionally, all of the SES and
                          Bilingual time off awards were processed in either the last
                          month of FY 2013 or in FY 2014.

                          We can also look at the impact of sequestration on the
                          NLRB’s awards program by comparing the value of FY 2013’s
                          rating based, bilingual, and SES awards to the value of FY
                          2012’s cash awards. In FY 2012, the NLRB paid
                          $2,162,480.08 in cash awards. When we combined the
                          estimated value of the FY 2013 time off awards, the cash
                          awards prior to sequestration, and the one SES cash award,
                          the total potential monetary value of the 2013 awards
                          program was $2,850,782.85. That amount represents a


1 During our analysis of time off awards, we observed that 51 employees apparently received duplicate time off

awards. The duplicate awards totaled 1,005 hours at a value of $49,612.66. This finding was communicated to the
Division of Administration, and the error was corrected. This finding will also be reported in the Semiannual Report
as a questioned cost.
                                                        16
                           31.83 percent difference from the FY 2012 cash awards
                           program.

                           The difference between FY 2012 and 2013 appears to be
                           directly related to a portion of a Federal Service Impasses
                           Panel decision that addressed a contractual dispute between
                           the NLRB and NLRBU involving the use of time off awards in
                           lieu of ratings based cash awards. That decision increased
                           the amount of time off awards for each summary ratings
                           category over the amount proposed by the NLRB. The NLRB
                           then increased the time off awards for the non-NLRBU
                           employees in a similar manner. As a result of the
                           implementation of that decision, the total amount of time off
                           hours awarded to the employees increased by 21,386 hours,
                           at a value of $1,040,719.79.

Rates of New Hires and Separations

                           In FY 2013, the NLRB had a reduction in payroll expenses of
                           $3,435,768.33. To determine the impact of that savings, we
                           compared the rate of new hires to the rate of separations for
                           FY 2009 through 2013. To perform the analysis we used the
                           NLRB’s personnel system to generate reports showing the
                           employees who were hired and separated between October 1,
                           2008 and September 30, 2013. Using the number of
                           employees on board as of October 2013, we calculated the
                           net change in number of employees.2 The chart below shows
                           that comparison:

              Beginning
              Number of                                         Rate of         Rate of        Net
     FY       Employees Hires              Separations           Hires        Separations   Change
    2009        1,698    110                  102                6.5%            6.0%         0.5%
    2010        1,706    198                  140               11.6%            8.2%         3.4%
    2011        1,764    151                  146                8.6%            8.3%         0.3%
    2012        1,769    141                  190                8.0%           10.7%        (2.7%)
    2013        1,720     65                  155                3.8%            9.0%        (5.2%)
    2014        1,630

                           It is difficult to draw conclusions based upon the data that is
                           currently available. The fact that senior level managers
                           exercised discretion to fill positions rather than instituting a
                           rigid freeze on hiring should mitigate the impact of the loss

2   The NLRB’s Office of Human Resources does not maintain data on vacant positions.
                                                       17
             of employees without a replacement. Nevertheless, reducing
             the number of employees by attrition rather than workforce
             planning is probably not advantageous to any organization.
             We also observed that for the first 6 months of FY 2014, the
             NLRB had a net loss of employees by a rate of 2 percent.


CONCLUSION

             The full effects of sequestration on the NLRB are still
             unknown. We do believe, however, that the short-term
             actions that were taken to meet the requirements of
             sequestration cannot be implemented as long-term strategies
             to meet budgetary restraints without a significant impact on
             the mission of the NLRB. As noted in the United States
             Government Accountability Office report on sequestration,
             GAO-14-244, there is simply a limit to the ability of an
             agency to achieve efficiencies and budget reductions by
             doing more with less.




                                 18
APPENDIX
                                                          -------



UNITED STATES GOVERNMENT
National Labor Relations Board


Memorandum


                                                          Date: June 24, 2014

To:         David P. Berry
            Inspector General

From:       Ronald E. Crupi
            Chief Financial Officer

Subject:    Response to Audit of the National Labor Relations Board FY 2013
            Sequestration - Preparation, Implementation and Impact Report No. OIG-
            AMR-72


         I have reviewed the above referenced audit report and agree with your assessment. I
appreciate the Inspector General's recognition of the Agency's extraordinary efforts to comply
with OPM and OMB directives prior to, during, and after sequestration and to responsibly plan
for and implement cost-cutting measures to address our substantial budgetary shortfall without
furloughing employees. However, our short-term actions, including severely limiting hiring,
which in turn resulted in not backfilling critical positions, almost certainly cannot be repeated in
the future. As the Inspector General recognized, repeated across-the-board budget cuts would
likely require furloughs and/or permanent reductions in our workforce, both of which would
detrimentally impact our ability to fulfill our statutory mission and to provide effective and
efficient service to the public.

       I also wish to note the significant amount of time that many senior Agency executives
were required to devote to planning for and responding to the challenges posed by
sequestration, time which could not be applied to mission-related work. Thus, the effect of
sequestration on the Agency and the public was not limited to the effect of the budget cuts
themselves.
                                                                                        ..




cc:     Chairman
        General Counsel
        Deputy General Counsel
